               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Caller and Reserve Service
                   Operations

                       Audit Report




                                              January 3, 2013

Report Number DP-AR-13-001
                                                                       January 3, 2013

                                            Caller and Reserve Service Operations

                                                       Report Number DP-AR-13-001




BACKGROUND:
Caller service is a premium service,        enforce applicable caller and reserve
available for a fee, to customers who       service policies or procedures and did
want to pick up their mail at a             not always charge customers for caller
designated U.S. Postal Service unit.        and reserve services provided. For
Customers obtain this service when they     example, employees did not always
routinely receive more mail than can be     review accounts to determine whether
delivered to the largest installed Post     customers had paid all required fees.
Office Box or need to collect mail
periodically during the day. Caller         Further, they did not establish a system
service mail is separated for each caller   to measure program effectiveness, such
service address paid by the customer.       as monitoring results of annual caller
Reserve service allows customers to         service reviews. As a result, we
reserve preferred caller addresses for a    identified $3.8 million in annual revenue
minimal fee.                                the Postal Service is at risk of losing.
                                            Additionally, we identified $415,000 of
As of August 2012, the Postal Service       annual revenue loss attributed to unpaid
collected $86.4 million in revenue from     caller and reserve fees.
79,786 caller and 106,110 reserve
service addresses issued to 55,957          WHAT THE OIG RECOMMENDED:
customers. Caller and reserve service       We recommended the Postal Service
allows large-volume customers the           evaluate the feasibility of implementing
flexibility to manage their mail to best    an automated process to identify
suit their needs.                           unassigned or inactive caller and
                                            reserve addresses, update criteria, and
Our objective was to determine whether      provide adequate training for necessary
the Postal Service is managing the          employees for caller and reserve
caller and reserve service operations to    service. We also recommended the
collect all revenue due the                 Postal Service ensure that districts
Postal Service.                             collect all delinquent fees identified in
                                            the annual reviews and our audit,
WHAT THE OIG FOUND:                         require districts to review all caller
The Postal Service did not effectively      service accounts, update annual caller
manage caller and reserve service           and reserve instructions, and provide
operations to collect all revenue due the   system access to coordinators.
Postal Service. Specifically,
Postal Service employees did not            Link to review the entire report
January 3, 2013

MEMORANDUM FOR:            MICHAEL J. AMATO
                           VICE PRESIDENT, ENGINEERING SYSTEMS

                           GREG G. GRAVES
                           ACTING VICE PRESIDENT, DELIVERY AND POST
                            OFFICE OPERATIONS

                           TIMOTHY F. O‟REILLY
                           VICE PRESIDENT, CONTROLLER

                           KELLY M. SIGMON
                           VICE PRESIDENT, CHANNEL ACCESS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Caller and Reserve Service Operations
                           (Report Number DP-AR-13-001)

This report presents the results of our audit of Caller and Reserve Service Operations
(Project Number 11BG020FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Ellis A. Burgoyne
    Joseph Corbett
    Deborah M. Giannoni-Jackson
    Nagisa M. Manabe
    Corporate Audit and Response Management
Caller and Reserve Service Operations                                                                              DP-AR-13-001



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Caller and Reserve Policies and Procedures .................................................................. 2

   Collecting Fees for Caller and Reserve Service .......................................................... 3

   Caller and Reserve Service Guidance ......................................................................... 5

   Access to Web Box Activity Tracking System Data ..................................................... 7

Measuring the Effectiveness of the Caller and Reserve Program ................................... 8

Recommendations .......................................................................................................... 9

Management‟s Comments ............................................................................................ 10

Evaluation of Management‟s Comments ....................................................................... 12

Appendix A: Additional Information ............................................................................... 14

   Background ............................................................................................................... 14

   Objective, Scope, and Methodology .......................................................................... 15

   Prior Audit Coverage ................................................................................................. 16

Appendix B: Monetary and Other Impacts..................................................................... 17

   Unpaid Fees Identified From Annual Reviews ........................................................... 17

   Employee Separating Mail ......................................................................................... 18

   Unassigned or Inactive Caller and Reserve Service Addresses ................................ 18

   Unpaid Fees Identified During Unit Reviews ............................................................. 18

   Updated Caller Service Policy ................................................................................... 19

Appendix C: Caller and Reserve Service Surveys ........................................................ 21

   Survey Methodology .................................................................................................. 21
Caller and Reserve Service Operations                                                                          DP-AR-13-001



  District Web Box Activity Tracking System Coordinator Surveys ............................... 21

  Unit Surveys .............................................................................................................. 24

Appendix D: Management‟s Comments ........................................................................ 26
Caller and Reserve Service Operations                                                             DP-AR-13-001



Introduction

This report presents the results of our audit of Caller and Reserve Service Operations
(Project Number 11BG020FF000). Our objective was to determine whether the U.S.
Postal Service is managing caller and reserve service operations to collect all revenue it
is due. This self-initiated audit addresses financial risk. See Appendix A for additional
information about this audit.

Caller service is a premium service, available for a fee, to customers who want to pick
up their mail at a designated Postal Service unit. Customers obtain this service when
they routinely receive more mail than can be delivered to the largest installed
Post Office Box (PO Box™) or need to collect mail periodically during the day. Caller
service mail is separated for each caller service address1 the customer pays for.
Reserve service allows customers to reserve preferred caller addresses for a minimal
fee. Additionally, a customer can pay a semiannual fee of between $440 and $700 for
one caller address and pay the yearly reserve service fee of $42 for any additional
address they wish to use now or in the future. If the customer uses a reserve service
address now, that mail would not be separated but, instead, be delivered and comingled
with all mail received for that customer. Caller and reserve service is a valuable product
the Postal Service provides to large volume customers to allow them the flexibility to
manage their mail to best suit their needs. Customers may also elect to receive firm
holdout service if they meet the requirements. This service enables customers to pick
up their own street-addressed mail at the Post Office once a day at the time the
postmaster specifies. The Postal Service allows this when the customer normally
receives 50 letters or more on the first delivery trip.

Unit personnel must accurately maintain all customer information in the Web Box
Activity Tracking System (WebBATS)2 to effectively manage the caller and reserve
service address inventory and ensure that customers timely pay all caller and reserve
fees. Postal Service management recognized the importance of the integrity of this
process and implemented an annual, nationwide caller and reserve service review
(annual review) as a tool to facilitate the discovery and collection of unpaid caller and
reserve fees. The annual review requires unit personnel to run caller and reserve
service reports and use them to evaluate inactive caller and reserve accounts to
determine whether a fee is due.



1
  A number assigned through the Address Management System, specifically for caller service. The assigned number
is used in the mailing address as a PO Box number, placed above the city, state, and zone improvement plan
        ®
(ZIP)+4 Code line. The PO Box number does not necessarily represent a physical PO Box. The Address
Management System is the national Postal Service database of every delivery address with its ZIP Code, ZIP+4
Code, and city and state name that serves as the foundation of data for all address correction tools. Address
Management System employees are responsible for adding and deleting caller and reserve records that update
WebBATS.
2
  A web-based application that allows units to manage PO Box and caller and reserve services. WebBATS is used to
post payments and refunds, assign special designations for a unit, and generate various reports.
                                                         1
Caller and Reserve Service Operations                                            DP-AR-13-001



Additionally, effective management of caller and reserve services depends on
customers following the Postal Service‟s address mailing standards on all mailpieces.
Currently, Postal Service data systems do not monitor customer compliance. Unit
personnel would have to monitor all caller and reserve service mail every day to ensure
that customers comply with program requirements. Many units receive thousands or
tens of thousands of caller and reserve service mailpieces daily, thereby making manual
monitoring impossible. The Postal Service created WebBATS coordinator positions to
assist the units in managing caller and reserve service operations. WebBATS
coordinators support the units by helping them complete their annual reviews, interpret
criteria, and answer system-related issues.

As of August 2012, the Postal Service collected $86.4 million in revenue from
79,786 caller and 106,110 reserve service addresses issued to 55,957 customers.

Conclusion

The Postal Service did not effectively manage caller and reserve service operations to
collect all revenue it was due. Specifically, Postal Service employees did not enforce
applicable caller and reserve service policies or procedures and did not always charge
customers for caller and reserve services provided. For example, employees did not
always review accounts in WebBATS to determine whether customers had paid all
required fees. Further, although the Postal Service established mailing requirements
and developed WebBATS to monitor caller and reserve services, it did not establish a
system to measure program effectiveness. For example, the Postal Service does not
track all annual caller and reserve service audit results to identify and correct system
issues, provide access to nationwide data in WebBATS, provide feedback on problems
that units are encountering, and link mailing data systems to WebBATS to identify all
customers using inactive and unassigned caller and reserve service addresses.

As a result, we identified $3.8 million in annual revenue the Postal Service is at risk of
losing. Additionally, we identified $415,000 of annual revenue loss attributed to unpaid
caller and reserve fees.

Caller and Reserve Policies and Procedures

Postal Service employees did not enforce applicable caller and reserve service policies
and procedures and did not always charge customers for caller and reserve services
provided. For example, employees allowed customers to use street addresses in lieu of
the caller and reserve service address, as required. This occurred because the
guidance related to the caller and reserve service operations was inconsistent, vague,
or difficult to locate; and the training available to unit personnel was not required and, if
taken, did not provide individuals with an adequate understanding of the subject matter.
Furthermore, district WebBATS coordinators had limited access to WebBATS, which
also contributed to the ineffective management of caller and reserve service. We
identified $3.8 million in annual revenue at risk of not being collected. Additionally, we




                                              2
Caller and Reserve Service Operations                                                                DP-AR-13-001



identified $415,000 of annual revenue loss attributed to unpaid caller and reserve fees.
See Appendix B for the monetary and other impacts calculations.

Collecting Fees for Caller and Reserve Service

We examined the results of 300 caller and reserve service unit reviews 3 performed at
249 units in fiscal year (FY) 2012.4 We concluded that unit personnel did not
consistently enforce caller and reserve service policy and the annual reviews did not
always identify and correct instances of policy not being enforced. Specifically, we
determined that:

    One hundred seven of the 300 unit annual reviews (36 percent) did not adequately
     document an investigation into 2,498 caller and reserve service addresses
     classified as inactive5 but still receiving mail. Annual reviews require unit personnel
     to evaluate inactive accounts to determine whether a fee is due. Additionally, district
     WebBATS coordinators are required to examine the completed review and follow
     up on all discrepancies. As a result of employees not following these requirements,
     units may not have collected $2.3 million in caller and reserve fees from 2,498
     accounts.

    Fifty-one of the 300 unit reviews (17 percent) identified 451 delinquent and
     uncollected caller and reserve fees valued at $336,000. Of the same 300 units, only
     seven reviews (2 percent) performed in FY 2011 identified delinquent fees totaling
     $20,000. We determined that an additional 76 of the 451 delinquent caller and
     reserve fees should have been identified during the FY 2011 reviews. As a result,
     we identified $273,000 in lost revenue. We are recommending the Postal Service
     work with customers to collect the lost revenue.

Also, in conjunction with the annual reviews, we asked the units to complete a
questionnaire developed by the U.S. Postal Service Office of Inspector General (OIG).
The purpose of the questionnaire was to evaluate the units' understanding of caller and
reserve service by obtaining additional information regarding their caller and firm
holdout customers.6 We received responses from 222 of the 249 units (89 percent) and
found that the units did not understand caller service mailpiece addressing
requirements. Additionally, units did not understand the differences between when
customers should pay for caller service and when customers were eligible to receive the
free firm holdout service.

3
  The Postal Service implemented the annual caller and reserve service reviews to assist units in identifying
uncollected caller and reserve service revenue. Unit management must perform these reviews and investigate all
noted discrepancies.
4
  A unit must complete a caller and reserve service review for each separate ZIP Code having a caller or reserve
service address; therefore, some units might need to complete more than one review. Two hundred and forty-nine
individual units performed the 300 reviews we evaluated.
5
  The inactive accounts were identified using a report created from data contained in the Electronic Uncoded Address
Resolution Service (eUARS) system. This system is a web-based application that works with mail processing
equipment. It can correct change-of-address records without a ZIP Code that do not match an established delivery
point in the Address Management System database.
6
  These questionnaires were separate from the online surveys discussed in Appendix C.


                                                         3
Caller and Reserve Service Operations                                                                 DP-AR-13-001



Specifically:

     Sixty-one of the 222 units (27 percent)7 allowed customers to use street addresses
      in lieu of the caller and reserve service address, as required. Based on responses
      to our questionnaire, the Postal Service identified 1,132 instances of customers
      using street addresses on their mail. The annual review does not require units to
      manually test for this situation, as Postal Service automated systems cannot detect
      this condition. When customers do not comply with Postal Service addressing
      policy and units do not enforce the policy, there is a risk that the Postal Service will
      not detect when caller and reserve service customers do not pay their fees. As a
      result, 1,132 customers using street addresses placed $1.2 million of annual
      revenue at risk.

     Thirty-four of the 222 units (15 percent) were providing free firm holdout service
      when the customers were receiving caller service. Unit personnel believed the
      customers qualified for free firm holdout service although they did not meet the
      requirements of (1) daily receiving more than 50 mailpieces, (2) only picking up
      their mail once per day, or (3) meeting mailpiece addressing standards. Based on
      responses to our questionnaire, the Postal Service identified 189 out of 1,063 (18
      percent) customers who were receiving caller service but were not charged. We
      calculated $208,656 of annual revenue at risk of not being collected. If we applied
      the 18 percent error rate to the total number of firm holdout customers, we
      estimate that as many as 19,272 customers8 are receiving the free firm holdout
      service nationwide.

We also examined caller and reserve service operations at 31 judgmentally selected
units. We contacted 20 units based on a review of their eUARS report results, which
identified mail volume for inactive caller and reserve service customers. We selected an
additional 11 units and performed on-site testing. We determined that:

     One unit visited provided caller service for 36 addresses but was charging for
      reserve service. The customer was only paying the reserve service fee of
      $42 instead of the $1,060 caller service fee for each of the 36 caller addresses.
      The customer originally set up the accounts as reserve service but later asked the
      unit to separate the mail, thereby making each address caller service. However,
      the unit never changed the reserve service fee to the caller service fee. Based on
      our analysis, we identified $35,588 in lost revenue annually.

     At one unit visited, nine of 17 customers (53 percent) used unassigned or inactive
      caller and reserve service addresses. Employees did not identify these customers
      or collect $19,000 in applicable caller and reserve service fees.


7
  The percentage is based on the number of units that responded.
8
  We identified 1,063 firm holdout customers at 222 units. Of those 1,063 customers, 189 (17.78 percent) receive free
caller service. Nationally, there are 108,391 firm holdout customers. We estimate 19,272 customers (17.78 * 108,391)
receive free caller service.


                                                         4
Caller and Reserve Service Operations                                                             DP-AR-13-001



     Employees at 11 of 20 units (55 percent) contacted did not charge $88,000 in
      annual caller and reserve service fees for 49 caller and reserve service
      customers.9 During the audit, the Postal Service collected $78,000 in delinquent
      fees from 46 of those customers.

See Appendix B for the monetary and other impacts calculations.

Caller and Reserve Service Guidance

Guidance related to caller and reserve service operations was inconsistent, vague, or
difficult to locate. We identified conflicting procedures outlined in different Postal Service
manuals, with neither providing clear procedural guidance on how to address delinquent
accounts. Obtaining direction often required employees to search multiple sources,
spread out over various locations on the Postal Service‟s website. This made it difficult
for employees to search and find answers to their questions. Some guidance was only
found in Frequently Asked Questions (FAQ), PowerPoint presentations, and the Retail
Digest newsletter located in various areas on the Postal Service‟s intranet site (Blue
Pages). As a result, employees were confused and did not know what policy to follow.

During the course of the audit, we conducted four individual online surveys to gather
feedback from WebBATS coordinators, unit managers, and unit clerks associated with
the caller and reserve service operations for 400 judgmentally selected ZIP Codes. The
OIG conducted the surveys to gain insight into the coordinators‟ involvement and
understanding of the caller and reserve service process. See Appendix C for comments
from the surveys relevant to issues with criteria, training, annual reviews, and
WebBATS access.

According to our surveys of WebBATS coordinators and unit managers, we found 81
percent of district WebBATS coordinators and 61 percent of unit personnel that manage
caller and reserve service believed the policies and procedures were confusing,
inconsistent, not detailed enough, or difficult to locate. Further, during interviews, we
determined that unit personnel did not always receive clear and consistent guidance
when seeking assistance from management. On separate occasions, two different
district Postal Service employees determined that caller service customers were
circumventing Postal Service policy by not adhering to the proper mail addressing
regulations. Instead of using the caller service address on their mailpiece as required,
one customer used their own unassigned numbers. Both employees contacted different
headquarters managers to determine how to resolve the situations but received
guidance inconsistent with criteria.

Postal Service Headquarters personnel acknowledged that guidance in the manuals is
inconsistent, but they do not have the funding to update it. As a result of information in
reference manuals being incomplete, employees were forced to search for clarification
or other guidance in various locations on Postal Service websites, instead of a single

9
 We identified the delinquent accounts by comparing plant mailing data obtained from eUARS with customer account
data obtained from WebBATS.


                                                       5
Caller and Reserve Service Operations                                            DP-AR-13-001



source. This made it difficult and time consuming for employees to search and find
answers to questions. We identified the following examples:

     Postal Service policy states that caller service customers must use their assigned
      caller service address, but a postmaster may exempt any customer continuously
      receiving firm holdout service since July 3, 1994, from the requirement.10 Some
      unit personnel are using this exemption to support allowing customers to use their
      street address on mailpieces instead of their assigned caller service address.
      However, through interviews we determined that unit personnel did not understand
      the criteria and, therefore, interpreted the exemption incorrectly. As a result, Postal
      Service Headquarters management informed us they are considering removing or
      revising this criterion in a future update to the manual.

     The DMM states that if a caller uses a physical PO Box to obtain caller service, the
      customer must pay applicable fees for both PO Box service and caller service.11
      Furthermore, the Postal Service website says, “Caller Service is a physical PO Box
      generally used as a caller service number.” However, there is Postal Service
      guidance that contradicts this, stating that no physical PO Box may be used to
      provide a caller service address.12

     The DMM and POM refer to a Postal Service (PS) Form 1093, Application for Post
      Office Box or Caller Service, which customers use to apply for both a PO Box and
      caller service.13 However, according to the Postal Service website, the form was
      replaced with the PS Form 1093-C, Application for Post Office Caller Service. We
      found a unit using the incorrect form for all caller and reserve customers because
      they were unaware an updated form existed.

     The POM indicates that units must maintain a PS Form 1091-B, Register for Caller
      Service Fees.14 However, the FAQ portion of the WebBATS website indicates
      these forms are obsolete.

     Neither the DMM nor the POM provides clear guidance to follow when caller
      service customers do not pay their fees on time. There are vague references to
      steps the unit must follow, but neither manual outlines the process from start to
      finish. In addition, the POM often refers to sections in the DMM that no longer
      exist.




10
   Domestic Mail Manual (DMM) Section 508.5.2.6.
11
   DMM Section 508.5.5.4.
12
   Postal Operations Manual (POM) Section 842.114.
13
   DMM Section 508.5.3.1 and POM Section 841.121.
14
   POM Section 842.217.


                                                     6
Caller and Reserve Service Operations                                                                  DP-AR-13-001



Caller and Reserve Service Training

The training available to unit personnel is not sufficient. We identified two online training
courses offered on the Postal Service‟s Learning Management System website.15
Based on our evaluation of the available training courses, along with feedback from unit
personnel, we determined that current Postal Service training does not provide
individuals with an adequate understanding of the subject matter. In addition, there is
currently no requirement for employees to participate in any caller and reserve service
training courses.

One course, developed for retail associates and PO Box clerks, provided only a basic
overview on using the Point-of-Service System16 and WebBATS to manage the caller
and reserve service operations. It briefly described how to initiate and renew caller and
reserve service but did not have specific instructions on how to address operational
issues that may arise or address mailing requirements. The second course, developed
for unit managers and supervisors, offered a basic overview on how to conduct the
annual caller and reserve service reviews. We determined that it contained outdated
references to procedures no longer applicable. Based on the results of our examination
of the reviews and interviews, we determined that many of the individuals involved in
performing the annual reviews do not fully comprehend the process and would benefit
from having a more detailed understanding of why they need to perform the reviews,
along with a detailed explanation of the reports used.

According to our surveys of unit employees and WebBATS coordinators,17 51 percent of
unit employees reported they did not take caller and reserve service training and 56
percent of the district WebBATS coordinators reported that they did not have formal
training. Of the coordinators who did have training, 53 percent said it was not sufficient
or detailed enough. However, we did not identify training specifically for WebBATS
coordinators. These coordinators are essential to ensuring that unit personnel
effectively manage caller and reserve services. In response to our survey, only 14
percent of district WebBATS coordinators reported that they fully understood their role.
Further, 53 percent of the district WebBATS coordinators believe that they do not have
the necessary knowledge and understanding of caller and reserve operations to
adequately address questions and concerns from unit personnel.

Access to Web Box Activity Tracking System Data

We also determined that district WebBATS coordinators had limited access to
WebBATS. The coordinators assist units18 with tasks, such as billing questions,
correcting payment errors, and providing guidance. Generally, because unit

15
   A system available through the Postal Service‟s intranet site (Blue Pages), which provides employees with the
ability to request, approve, and engage in training electronically.
16
   The primary hardware and software system used to conduct retail sales transactions at post offices. This system
automates and simplifies retail transactions and captures transactional data related to products and services sold.
17
   See Appendix C for survey responses relevant to issues with criteria, training, annual reviews, and WebBATS
access.
18
   On average, each coordinator supports about 470 units.


                                                          7
Caller and Reserve Service Operations                                          DP-AR-13-001



management provides the only level of oversight, the coordinators work with the units to
investigate and monitor caller and reserve service issues. However, we believe limited
or no access to WebBATS contributed to the ineffective management of caller and
reserve service.

Headquarters management stated that direct access to WebBATS is not necessary for
the WebBATS coordinators to perform their duties and directed the coordinators to
connect to unit computers and view WebBATS remotely. However, WebBATS
coordinators indicated that this alternative is not effective and that they need the access
to provide adequate assistance to the units. An OIG survey of district WebBATS
coordinators found 82 percent believes NetMeeting is not an adequate alternative to
having access to WebBATS. In addition, 90 percent of the coordinators stated they
need access to WebBATS to perform their job efficiently and effectively. For example,
the coordinators explained that having to rely on remotely viewing WebBATS prevents
them from being proactive. The coordinators cannot pull any reports or research any
issues without having a unit employee take them through WebBATS. The coordinators
also said it takes them longer to assist the units by remotely viewing WebBATS
because they often have to wait while unit employees are pulled away to perform other
duties, such as waiting on customers. Other issues cited were slow internet access and
the unit‟s unfamiliarity with using WebBATS.

The WebBATS coordinators also stated that having WebBATS access would enable
them to perform more frequent monitoring of the unit‟s caller and reserve issues. It
would also provide them with the necessary hands-on experience and working
knowledge of the system needed to assist the units properly. See Appendix C for
additional information on the OIG survey.

We discussed WebBATS access with the Postal Service‟s chief privacy officer and
WebBATS program manager and they explained the data maintained in WebBATS is
sensitive because it contains personally identifiable information relating to customers.
Some data elements are sensitive by themselves, such as social security numbers, and
some become sensitive when linked with other data elements, such as an address
when linked with a name. However, we discussed this concern with the Information
Technology (IT) department and they indicated they could restrict viewing access and
not allow access to sensitive data.

Measuring the Effectiveness of the Caller and Reserve Program

Although the Postal Service established mailing requirements and developed WebBATS
to monitor caller and reserve service, the Postal Service did not establish a system to
measure the effectiveness of the program. For example, the Postal Service does not
currently:

     Track the results of the annual audits. Information such as time spent,
      discrepancies noted, and additional revenue collected for each annual review is
      not centrally recorded and, therefore, cannot be evaluated. During the audit, we



                                             8
Caller and Reserve Service Operations                                                                    DP-AR-13-001



      evaluated 300 annual reviews the units conducted. Thirty-one percent of
      delinquent caller service customers that the Postal Service identified in the
      FY 2012 reviews should have been identified in the FY 2011 reviews.
      Headquarters and WebBATS coordinators would benefit from a system that
      tracked, evaluated, and determined the cost effectiveness of the annual reviews.

     Provide access to nationwide caller and reserve service data in WebBATS. The
      Postal Service does not currently have the ability to view and analyze data in
      WebBATS and provide feedback to unit personnel on potential problem areas. For
      example, it is not possible for someone to generate payment history or delinquent
      reports for all customers to see when customers are delinquent. Headquarters
      personnel expected that recent system upgrades to WebBATS would give them
      the ability to obtain data and run nationwide reports. However, the upgrades did
      not meet their requirements. The Accounting Service Center19 in San Mateo, CA
      can create reports but to do so requires sufficient justification and funding. Not
      having easily available access to nationwide data in WebBATS limits the ability of
      personal responsible for oversight to assess issues in the area, district, and
      individual units.

     Link mailing data systems to WebBATS. Currently, the Postal Service does not
      have an effective method to identify all customers using inactive and unassigned
      caller and reserve service addresses. For example, we judgmentally selected two
      trays of mail at one site visited and identified one customer using 238 reserve
      service addresses for which the company had not applied for, or paid to use,
      resulting in about $10,00020 in free reserve service annually. An automated system
      using mail processing equipment to capture data and comparing the machine data
      to customer data in WebBATS would add to the Postal Service‟s ability to identify
      customers who did not pay their required fees and, ultimately, increase revenue.

As of August 2012, the Postal Service collected $86.4 million in revenue from 79,786
caller and 106,110 reserve service addresses issued to 55,957 customers. Without a
more reliable, data-driven process, the Postal Service will have to continue to rely on
manual processes and manual annual reviews to ensure they collect all revenue.

Recommendations

We recommend the vice president, Engineering Systems:

1. Implement, if feasible, an automated process to identify all inactive or unassigned
   caller and reserve service addresses by linking mailing data systems to the Web Box
   Activity Tracking System.

19
   An accounting and disbursing facility that provides accounting support for postal activities. Service centers are
located in San Mateo, Minneapolis, and St Louis. Each specializes in one or more accounting functions, such as
payroll, accounts payable, and money orders.
20
   Two hundred thirty-eight reserve service addresses multiplied by the annual reserve service fee of $42 equals
$9,996. We included this amount above as part of the $19,000 in annual revenue loss calculated when we found
customers using unassigned or inactive caller and reserve service addresses during a site visit.


                                                           9
Caller and Reserve Service Operations                                           DP-AR-13-001




2. Provide area and district Web Box Activity Tracking System (WebBATS)
   coordinators with access to WebBATS so they can effectively and efficiently provide
   support to the field and provide appropriate headquarters personnel nationwide
   access so they can effectively and efficiently support the WebBATS coordinators.

We recommend the acting vice president, Delivery and Post Office Operations, in
coordination with the vice president, Channel Access:

3. Update caller and reserve service policies and procedures so they are consistent,
   clear, accurate, and easily located and accessible in one place.

4. Update the annual caller and reserve service review instructions to include
   identifying caller service customers using street address and firm holdout customers
   who do not meet mail volume requirements.

We recommend the vice president, Channel Access, in coordination with the acting vice
president, Delivery and Post Office Operations:

5. Develop and provide adequate training to unit employees, managers, and Web Box
   Activity Tracking System coordinators assigned to caller and reserve service.

We recommend the acting vice president, Delivery and Post Office Operations:

6. Follow up with the areas to ensure district and field units collect delinquent fees
   identified during the annual reviews and our audit.

7. Establish a process to track and evaluate the effectiveness of the annual audits.

We recommend the acting vice president, Delivery and Post Office Operations, in
coordination with the vice president, Controller:

8. Require the areas to ensure districts and field units review caller service and firm
   holdout accounts to determine if they were established according to policy and
   applicable revenue is collected.

9. Update the annual caller and reserve service review instructions to include
   identifying caller service customers using street address and firm holdout customers
   that do not meet mail volume requirements.

Management’s Comments

Management agreed with recommendations 1 and 3 through 9 and disagreed with
recommendation 2. Management neither agreed nor disagreed with the monetary
impacts.




                                            10
Caller and Reserve Service Operations                                            DP-AR-13-001



Engineering Systems will continue to evaluate recommendation 1 to automate the
process to identify all inactive or unassigned caller and reserve service addresses by
linking mailing data systems to WebBATS. They anticipate responding to the OIG by
January 4, 2013.

Delivery and Post Office Operations will collaborate with Channel Access to address
recommendations 3 and 4 to update policies and procedures related to caller and
reserve service by July 1, 2013.

Channel Access will address recommendation 5 by reviewing and updating two caller
and reserve training courses by July 1, 2013.

Delivery and Post Office Operations will collaborate with Finance to address
recommendation 6 by ensuring that district and field units collect delinquent fees
identified during the annual reviews and will address recommendation 7 by establishing
a process to track and evaluate the effectiveness of the annual audits. Management
estimates addressing these recommendations by March 31 and July 1, 2013,
respectively. Further, Delivery and Post Office Operations will collaborate with Finance
to address recommendations 8 and 9 related to firm holdout customers and applicable
procedures. Management estimates completing corrective action for these
recommendations by March 31 and July 1, 2013, respectively.

Management disagreed with recommendation 2, which proposed providing area and
district WebBATS coordinators, as well as appropriate headquarters personnel, access
to WebBATS. Management disagreed for the following reasons:

   WebBATS contains sensitive personally identifiable information that is protected by
    the Privacy Act. Allowing headquarters personnel or area and district coordinators
    access to individual customer records to assist with system support is not an
    allowable disclosure under the Privacy Act.

   Modifying the WebBATS application to allow access to limited data would require a
    significant financial expense.

   WebBATS coordinators have tools they can use if they need to assist a site with any
    issues. By using NetMeeting or Remote Assistance (ACE3), they can connect to the
    caller‟s personal computer to see what the issue is and help resolve it.

   Multiple reports are generated and made available to the coordinators that assist
    them in tracking site compliance. This allows them to call or visit the sites that are
    having problems with WebBATS.

See Appendix D for management‟s comments in their entirety.




                                              11
Caller and Reserve Service Operations                                           DP-AR-13-001



Evaluation of Management’s Comments

The OIG considers management‟s comments responsive to recommendations 1 and 3
through 9 and corrective actions should resolve the issues identified in the report.
However, we do not believe management‟s comments provide a sufficient basis for not
granting WebBATS access to WebBATS coordinators.

Regarding recommendation 2, we agree that the Postal Service must protect sensitive
data. However, we do not consider our recommendation as contradictory to this position
or current practices. We found that headquarters has provided some coordinators with
very limited access to WebBATS. Specifically, they were given WebBATS access,
including the sensitive information, for up to 10 ZIP Codes at any one time. They were
granted this access to help the coordinators perform their duties.

Further, we found it is possible to provide access to WebBATS data without
compromising customer information or requiring significant financial expense. Based on
our observations and interviews with Delivery & Retail Systems‟ Engineering personnel,
we determined there were very few reports in WebBATS that contained sensitive data.
Further, we were advised by Postal Service IT personnel that it would not be difficult for
them to develop a way to provide employees with „read-only‟ access to WebBATS while
restricting access to sensitive data. Although we did not perform a cost analysis, we
believe that management could perform an analysis and weigh any costs against the
increases in the efficiency and effectiveness of the WebBATS coordinators‟ duties and
overall program improvements.

In addition, we believe the overwhelming responses from surveys received from
WebBATS coordinators does not support management‟s position that WebBATS
coordinators did not need access to WebBATS because of the availability of
NetMeeting. As noted in our report, 82 percent of the WebBATS Coordinators stated
that NetMeeting is not an adequate alternative to having access to WebBATS. In
addition, 90 percent of the coordinators stated they need access to WebBATS to
perform their job efficiently and effectively. Management indicated they did not dispute
our survey results but said our report did not provide adequate evidence to support our
position that granting access to WebBATS is warranted over the current use of
NetMeeting.

We believe the explanations cited in the report provide sufficient evidence that access
to WebBATS is needed. For example, we stated the coordinators informed us that
having to rely on NetMeeting to work with the units prevents them from being proactive.
They indicated they could not pull any reports or research any issues without having a
unit employee walk them through the various screens and reports in WebBATS.
Further, because the unit employees have other assigned duties, it is often difficult
coordinating a time acceptable for both parties to get together to use NetMeeting. The
coordinators explained that even after they arrange a mutually agreed upon time with
the unit, it often takes them longer to assist them with their issues. This is because they
often have to wait while unit employees are pulled away to perform other duties, such



                                             12
Caller and Reserve Service Operations                                          DP-AR-13-001



as waiting on customers. Usually this results in having to re-schedule the NetMeeting
session. Additionally, most of the WebBATS coordinators do not perform this role
exclusively. They have other job functions that serve as their primary focus. Therefore, it
is important for them to make the best use of their time. If a coordinator had access to
WebBATS, they could work on issues for the unit when they have the time and relay the
responses at their convenience.

Further, the WebBATS coordinators also stated that having WebBATS access would
enable them to perform more frequent monitoring of the unit‟s caller and reserve service
issues. Additionally, access would provide them with the necessary hands-on
experience and working knowledge of the system that many are lacking, which is
needed to become proficient and effectively assist the units. See Appendix C for a
sample of comments made by the coordinators outlining why it is so important to have
access to WebBATS.

The last point management made was that WebBATS coordinators have multiple
reports on the Postal Service‟s website to assist them in tracking site compliance.
However, based on our review of the reports, along with discussions with headquarters
personnel and WebBATS coordinators, the reports deal mostly with PO Boxes and not
caller and reserve service. Consequently, they do not help correct the issues and
concerns listed above.

The OIG considers recommendations 1 and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service‟s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed. The OIG does not consider recommendation
2 significant and, therefore, will pursue the issue through the formal audit resolution
process.




                                            13
Caller and Reserve Service Operations                                                              DP-AR-13-001




                                   Appendix A: Additional Information

Background

Caller and reserve services are premium services provided for the convenience of
customers. As of August 2012, the Postal Service collected $86.4 million in revenue
from 79,786 caller and 106,110 reserve service addresses issued to 55,957 customers.
Caller service is available for a fee to any customer who:

         Requires more than free carrier or general delivery service.

         Needs to collect mail periodically during the day.

         Receives more mail than can be delivered to the largest installed PO Box at the
          Postal Service unit to which the caller‟s mail is addressed.

Caller service customers must pay a semiannual fee between $440 and $70021 for each
caller service address. The fee may be paid for two 6-month periods at a time, up to
1 year in advance. Benefits of caller service include:

         Early morning mail pickup.

         Security for valuable correspondence.

         Separate business address so the customer can separate their business mail
          from their personal mail.

         Customer accessibility to retrieve mail throughout the day at convenient times.

A caller service customer can opt to receive mail addressed to many different caller
service addresses in a single bulk delivery. If the Postal Service does not make
separations for each of the addresses, only one caller service fee is charged.

Customers may reserve caller service addresses for future use, or for internal use, by
paying an annual reserved caller service fee of $42. Reserved service fees apply for
each of the caller addresses to which mail is addressed, but separation of the mail is not
made. Reserved service fees are not prorated and customers who continue to reserve
caller service addresses for a new calendar year must make renewal payments before
January 1 of the new calendar year. If a caller service customer reserves an address
and begins to receive mail separated to that address, or otherwise notifies the Postal
Service that he or she intends to begin receiving mail separated to that address, the
customer must pay the appropriate semiannual fee for caller service.



21
     Publication 431, Post Office Box Service and Caller Service Fee Groups, dated January 2012.


                                                          14
Caller and Reserve Service Operations                                                                DP-AR-13-001



Caller service customers must use their caller service address (PO Box and assigned
caller service number) immediately above the city, state, and ZIP Code. Otherwise, mail
without a PO Box number is delivered to the street address if that address is on the
mail. If there is no PO Box number and no street address on the mail, it might be treated
as undeliverable. Mail with dual addresses, both a street address and PO Box number,
is delivered to the address located on the line immediately above the city and state. If
the street address and PO Box number are on the same address line, mail is delivered
to the PO Box number. These restrictions also apply to return addresses on mail.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service is managing caller and
reserve service operations to collect all revenue due the Postal Service. To accomplish
this objective, we performed the following activities:

     Conducted site visits at 11 judgmentally selected retail units to determine whether
      the units properly managed caller and reserve service operations.

     Reviewed caller and reserve service policies, procedures, and requirements.

     Interviewed Postal Services employees to gain an understanding of the caller and
      reserve service process.

     Assessed reports in place within WebBATS to ensure all applicable caller and
      reserve fees are collected. We evaluated field units' accessibility to the data and
      systems the units needed to perform their duties.

     Assessed the caller and reserve service training available to field employees.

     Examined 20 units using data from eUARS to determine whether the Postal
      Service is providing customers with free caller and reserve service.

     Evaluated FY 2011 caller and reserve service annual review instructions and
      examined 300 judgmentally selected FY 2012 caller and service reviews.22 We
      asked unit personnel to identify the number of firm holdout customers they serve
      and the number of callers in their unit using street addresses in place of their
      assigned PO Box number.

     Interviewed Postal Service officials to determine the feasibility of identifying
      uncollected caller and reserve revenue through automation.

    Using the data from our judgmentally selected sites, we performed two separate
     surveys of district WebBATS coordinators and two surveys of unit personnel

22
  The OIG selected the top 400 ZIP Codes by issued callers using the National WebBATS Monthly Summary Report
on the Postal Service‟s website. The report lists all active callers by ZIP Code. Then the OIG judgmentally examined
300 of the 400 reviews.


                                                         15
Caller and Reserve Service Operations                                            DP-AR-13-001



     working in the area of caller and reserve service: one to managers and one to
     clerks. The OIG conducted the surveys to gain insight into employee‟s involvement
     and understanding of the caller and reserve service process. See Appendix C for
     additional information on these surveys.

We conducted this performance audit from September 2011 through January 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on October 15, 2012, and included
their comments where appropriate.

We assessed the reliability of caller and reserve operations data by confirming our
analysis and results with Postal Service managers and other postal data sources. We
determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             16
Caller and Reserve Service Operations                                                                   DP-AR-13-001




                             Appendix B: Monetary and Other Impacts

                                         Table 1 - Monetary Impacts

                                                                                    Annual               Total
     Recommendation                        Impact Category                          Amount
           3                                Revenue Loss23                            54,526              146,928
           6                                 Revenue Loss                           $360,948             $926,136
         Total                                                                      $415,474           $1,073,064

                                           Table 2 - Other Impacts

                                                                                   Annual                Total
 Recommendation                          Impact Category                           Amount
        5                                Revenue at Risk24                        $1,249,728           $2,499,456
        8                                 Revenue at Risk                          2,506,602            2,923,914
      Total                                                                       $3,756,330           $5,423,370

Unpaid Fees Identified From Annual Reviews

When determining the revenue loss associated with delinquent caller and reserve fees
identified by the Postal Service during the FY 2012 caller and reserve annual reviews,
we summed the products (239 unpaid caller fees) multiplied by an average annual
unpaid caller fee of $1,10425 and 212 unpaid reserve fees multiplied by the annual fee
of $42, for a total annual revenue loss of $272,760. We projected a recoverable revenue
loss of $545,520 over the next 2 years.

Additionally, we determined that 76 of the 239 unpaid caller fees should have been
identified during the FY 2011 annual review26 and 53 of these unpaid caller fees should
also have been identified during the FY 2010 annual review. We multiplied these
129 unpaid caller fees from the prior 2 years by $1,104 to calculate additional
recoverable revenue loss of $142,416. In total, we cited an annualized total of $272,760


23
   Amount the Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed. May be recoverable
or unrecoverable. May apply to historical events or a future period (in the sense perceived future losses may be
prevented by the implementation of a recommendation).
24
   Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).
25
   We calculated the annual average caller service fee by taking the total number of active caller service customers
for each fee group and multiplying it by the annualized fee for that group (fee group 1 – 5,581 x $1,400 = $7,813,400;
fee group 2 – 8,034 x $1,220 = $9,801,480; fee group 3 – 19,077 x $1,100 = $20,984,700; fee group 4 – 29,444 x
$1,080 = $31,799,520; fee group 5 – 15,689 x $1,060 = $16,630,340; fee group 6 – 6,721 x $960 = $6,452,160; and
fee group 7 – 492 x $880 = $432,960). Then we added all the annualized to come up with overall total fees collected
of $93,914,560. Finally, we divided this sum by the total number of active caller service customers to come up with
the average annual caller service fee ($93,914,560 / 85,038 = $1,104).
26
   We used the annual review completion deadline date of July 1, 2011, when determining whether unpaid caller fees
should have been identified in previous caller and reserve service reviews.


                                                          17
Caller and Reserve Service Operations                                                                 DP-AR-13-001



in our report and claimed $687,936 as total monetary impact, revenue loss, attributed to
unpaid caller and reserve fees.

Employee Separating Mail

We calculated revenue loss of $35,588 for additional caller services provided when the
Postal Service made 36 additional separations for caller mail without collecting a fee.
Specifically, we multiplied the 36 separations by the annual caller service fee of
$1,060.27 Then we subtracted the $1,060 caller and $1,512 in reserve fees the customer
already paid and determined an annual revenue loss of $35,588. We projected the
amount of recoverable revenue loss for 2 years forward to be $71,176. We cited an
annualized total of $35,588 in our report and claimed $71,176 as total monetary impact,
revenue loss, attributed to making additional separations.

Unassigned or Inactive Caller and Reserve Service Addresses

To calculate the revenue loss associated with service provided for 257 unassigned or
inactive caller and reserve service addresses, we multiplied eight unpaid caller fees by
$1,06028 and 249 unpaid reserve fees by $42, for a total annual revenue loss of
$18,938. We calculated a $37,876 recoverable revenue loss for the past 2 years and
$37,876 recoverable revenue loss for the next 2 years for a total of $75,752. We cited
an annualized total of $18,938 in our report and claimed $75,752 as total monetary
impact, revenue loss, attributed to unassigned or inactive caller and reserve service
addresses.

Unpaid Fees Identified During Unit Reviews

To calculate the revenue loss associated with delinquent caller and reserve fees
identified during unit reviews, we multiplied 76 unpaid caller fees by the average annual
caller fee of $1,104 and 102 unpaid reserve fees by the annual fee of $42, for annual
revenue loss of $88,188. Then we projected a recoverable revenue loss of $176,376 for
the next 2 years. Additionally, we determined that 37 of the 76 unpaid caller fees should
have been identified during the FY 2011 annual review,29 and 19 of those should also
have been identified during the FY 2010 annual review. We multiplied these 56 unpaid
caller fees by $1,104 to calculate a recoverable revenue loss of $61,824 for the past
2 years. We cited an annualized total of $88,188 in our report and claimed $238,200 as
total monetary impact, revenue loss, attributed to unpaid caller and reserve fees.




27
   The site visited is assigned to caller service fee group 5. The $530 semiannual fee multiplied by 2 equals $1,060.
28
   The site visited is assigned to caller service fee group 5. The $530 semiannual fee multiplied by 2 equals $1,060.
29
   We used the annual review completion deadline date of July 1, 2011, when determining whether unpaid caller fees
should have been identified in previous caller and reserve service reviews.


                                                         18
Caller and Reserve Service Operations                                           DP-AR-13-001




See Table 3 for the specific details of monetary impacts identified in our report.

                             Table 3 – Details of Monetary Impacts

                                                                Annual           Total
    Recommendation                      Impact                  Amount
          3                Employee Separating Mail               35,588              71,176
          3                Unassigned or Inactive Caller and      18,938              75,752
                           Reserve Service Addresses
            6              Unpaid Fees Identified From           $272,760        $687,936
                           Annual Reviews
            6              Unpaid Fees Identified During Unit        88,188          238,200
                           Reviews
         Total                                                   $415,474      $1,073,064

Updated Caller Service Policy

We used the average caller fee, based on FY 2011 data, to calculate other impacts
related to district employees not properly completing the annual caller and reserve
service reviews, caller service customers using street addresses, and firm holdout
service provided to customers who do not meet standards.

     Inactive Caller Service Customers: We analyzed 300 FY 2012 caller and reserve
      service reviews and identified 2,498 inactive callers and reserve service
      addresses. We determined where there was no evidence the unit conducted an
      investigation to identify unpaid fees or district WebBATS coordinators examined
      completed reviews and follow up on all discrepancies. We multiplied the
      2,065 inactive caller service addresses by the average caller rate of $1,104 and
      433 inactive reserve service addresses by $42 for a total of $2,297,946 other
      impact, revenue at risk.

     Street Address: During our analysis of FY 2012 caller and reserve service annual
      reviews, we noted 1,132 instances in which caller service customers used a street
      address on mail. We multiplied the 1,132 caller service addresses by the average
      caller rate of $1,104 for a total of $1,249,728 annual revenue at risk. We projected
      revenue at risk of $2,499,456 over the next 2 years. We cited an annualized total
      of $1,249,728 in our report and claimed $2,499,456 as total other impact, revenue
      at risk, attributed to caller service customers using street addresses on mail.

     Firm Holdout Customers: Retail units provided details about firm holdout
      customers for the FY 2012 annual caller and reserve service reviews. We
      determined that 189 firm holdout customers did not meet the requirements to
      receive the free service. We applied the average caller rate of $1,104 to the 189
      possible customers not meeting criteria and calculated $208,656 annual revenue
      at risk. We calculated $625,968 revenue at risk for 1 year prior and 2 years


                                              19
Caller and Reserve Service Operations                                             DP-AR-13-001



      forward. We cited an annualized total of $208,656 in our report and claimed
      $625,968 as total other impact, revenue at risk.

See Table 4 for the specific details of other impacts identified in our report.

                               Table 4 – Details of Other Impacts

                                                                 Annual            Total
 Recommendation                          Impact                  Amount
       8                   Inactive Caller Service Customers    $2,297,946        $2,297,946
       5                   Street Address                        1,249,728         2,499,456
       8                   Firm Holdout Customers                  208,656           625,968
     Total                                                      $3,756,330        $5,423,370




                                               20
Caller and Reserve Service Operations                                                            DP-AR-13-001




                      Appendix C: Caller and Reserve Service Surveys

Survey Methodology

During the course of the audit, we conducted four individual online surveys to gather
feedback from WebBATS coordinators, unit managers, and unit clerks associated with
the caller and reserve service operations for 400 judgmentally selected ZIP Codes.30

District Web Box Activity Tracking System Coordinator Surveys

We performed two separate surveys for the district WebBATS coordinators. The OIG
conducted the surveys to gain insight into the coordinators involvement and
understanding of the caller and reserve service process. Using the coordinator‟s contact
information posted on the WebBATS homepage, we issued the first survey by email on
January 9, 2012, to the primary district WebBATS coordinators and their back-ups. We
received responses from 86 of the 116 polled; however, some coordinators did not
answer every question.

We conducted a follow-up survey by email on June 1, 2012, to collect additional support
information from the primary district WebBATS coordinators and their back-ups. This
time we received responses from 59 of the 116 polled. As in the first survey, some
coordinators did not answer every question.

We asked various types of questions in our surveys, including open-ended questions, in
order to elicit additional and more specific information from the participants. Here are
some of the comments,31 relating to the issues discussed in the report, from the two
surveys sent to the coordinators:

          Subject                                               Comments
 Criteria                       There is not enough detailed information in the current
                                policies and procedures guides to resolve particular issues. In
                                addition, it is not always clear and can be confusing if you do
                                not work with it regularly.

                                Unit personnel really need to be trained on the differences
                                between callers, reserves, and firm holdouts, because this is
                                where most of the issues arise. Caller/Reserve should have
                                its own field guide. A step-by-step instruction on all issues
                                that might arise when the WebBATS user or manager
                                confronts an issue.


30
   The OIG judgmentally selected the top 400 ZIP Codes, by issued callers, using the National WebBATS Monthly
Summary Report on the Postal Service‟s website. The report lists all active callers by ZIP Code.
31
   We made grammatical changes to the comments. We also combined similar comments and summarized lengthy
comments as necessary.


                                                      21
Caller and Reserve Service Operations                                              DP-AR-13-001



         Subject                                        Comments
                              I would benefit from some very basic information about
                              WebBATS and Caller/Reserve tasks being easily accessible.
                              An extensive list of hints, tips, and answers to common
                              problems would be golden; I use Postal Service policies to
                              help answer questions. But it seems like some of the
                              information tells you how to perform a process but very
                              seldom gives you information on how to correct a problem if
                              something goes wrong.
                              How to deal with unique ZIP Codes. This causes most of our
                              issues; more details and instructions on whether an existing
                              caller customer should be allowed to keep a street address
                              for a unique ZIP Code, reserve separations under a caller
                              number, firm holdouts caller, or be required to change and get
                              a PO Box number.
                              The POM is not consistent with the DMM, and I am told to use
                              the POM as the reference. The DMM and POM are not very
                              detailed. While the criterion can be found (online), if you do
                              not type exactly what you are looking for, it is tedious and
                              time consuming to find answers.
                              All the caller and reserve service information is not in one
                              place. At times, I have to refer to the online self-help, the
                              DMM, POM, Administrative Support Manual, and the
                              WebBATS website to find an answer. The resource data are
                              spread out over too many databases, manuals, and individual
                              instructions.
 Training                     I feel that there is not enough training for offices; therefore,
                              errors are made and Postal Service revenue is lost; training is
                              very vague.

                              The training did not instruct me on how to correct issues. I
                              need training so I can educate the 950+ offices in the district
                              and then hold them accountable.

                              Give district WebBATS coordinators access to a test site
                              where we can learn WebBATS. Coordinators need to be able
                              to walk the units through their problems and be able to learn
                              WebBATS and work out questions on how the system should
                              work.

                              The training covers more on the concept of a caller and a
                              reserve, their relationship with each other, benefits, and how
                              to do the audit. The questions we get from unit personnel are
                              more on the mechanics. How does the process work in



                                               22
Caller and Reserve Service Operations                                              DP-AR-13-001



         Subject                                        Comments
                              WebBATS?
                              The online training course does not prepare a WebBATS
                              coordinator for the many site-specific questions heard daily.
 Annual Reviews               Annual audit forms are confusing to field employees; we need
                              instructions on how we should review the audits received from
                              the field.

                              The annual audit instructions are not very clear, and many
                              questions from the field arise.
                              In my district, we have more than 2,000 audits to review, both
                              caller and PO Box audits. More than 80 percent of these
                              audits have come in with errors. Offices have to be contacted
                              to make corrections and the time required to do this is, in
                              itself, a full-time job. However, I must fit it in with all of my
                              other responsibilities.
                              I have had to request at least 70 percent of audits to be done
                              over. The offices are not complying and they are not being
                              held accountable for not complying.
                              eUARS is very confusing -- some data show and some do
                              not. I‟m not really sure how to follow up on questions in the
                              annual reviews on how they are to be monitored or recorded.
                              I need clarification on what the data in the Active and Non-
                              Active columns in the eUARS reports represent.
                              We do not have a staff or enough training to review reports or
                              to perform what is expected of us.
                              Monitoring the audits - there is not much time for anything
                              else.
                              I cannot stress enough how much a WebBATS coordinator
 WebBATS Access
                              needs this access. When an office calls because it has an
                              issue, you need access to be able to tell it what screens to go
                              to and what to look for in the system. I waste so much time
                              doing 'NetMeetings' with offices so I can see their screen and
                              point them in the right direction. Most offices have their box
                              clerks call. They do not know how to use NetMeeting. So it
                              takes a lot of time to walk them through NetMeeting. The
                              privacy issue regarding customer information does not make
                              sense. If an Executive Administrative Schedule (EAS)
                              employee cannot be trusted with data, how is it that
                              Consumer Affairs clerks, who are not EAS employees, can
                              have complete district access to the Change Of Address
                              database? They need access to efficiently perform their
                              duties as do we. All of the 'restricted information' is still
                              available to us, but it takes longer to access, such as by
                              NetMeeting. Many employees are not familiar with setting up


                                                23
Caller and Reserve Service Operations                                                       DP-AR-13-001



          Subject                                           Comments
                               the computer to share (their screen), which takes additional
                               time (to resolve questions and problems).
                               All WebBATS coordinators should be proficient in navigating
                               to WebBATS. This is very hard to do without access. If 'Read'
                               access was permitted to all coordinators, the viewing would
                               allow more frequent monitoring. If I cannot see exactly what
                               the problem is, it takes longer to help units solve the problem.
                               The one thing that makes my job the hardest is not having
                               access to the WebBATS databases for the ZIP Codes I
                               oversee. When an office has a problem, I cannot just look at
                               the data. I have to hold a NetMeeting, taking valuable time
                               from unit personnel and myself. If I had access, I could be
                               proactive on reviewing the WebBATS News page to see what
                               actions are not being addressed.
                               Often, when a person new to WebBATS is reaching out for
                               help, he or she does not provide me with the data I need to
                               give him or her an accurate answer. So I spend a lot of time
                               investigating. If I had all of the information up front, I could
                               have saved time. In addition, if I was able to go into
                               WebBATS for offices, I could more easily monitor late
                               payments, due date exceptions, and locks needing changed.
                               I get email and voice messages from offices with WebBATS
                               issues. Having access allows me to find the answers for them
                               without calling and waiting on them to help customers, get
                               their mail sorted, or get their deposit and truck ready. I can
                               just get the answer and send it to them and move on to my
                               next task, so I think it saves me time.

Unit Surveys

Using the 400 ZIP Codes judgmentally selected in our audit, we emailed two surveys to
unit personnel working in the area of caller and reserve service: one to managers and
one to clerks. The OIG conducted the surveys to gain insight into unit employees‟
involvement and understanding of the caller and reserve service process. We received
feedback from 142 unit managers and 127 unit clerks; however, not everyone answered
each question. We asked various types of questions in our survey, including
open-ended questions to elicit additional and more specific information. Here are some
comments,32 relating to the issues discussed in the report that we considered from the
units.




32
  We made grammatical changes to the comments. We also combined similar comments and summarized lengthy
comments as necessary.


                                                   24
Caller and Reserve Service Operations                                              DP-AR-13-001




     Issue                                          Comment
 Criteria         Information should be easier to find in a shorter period.
                  I would like to know the details concerning caller service explaining what
                  customers can and cannot do. For example, can they just use their
                  street address to get the mail or do they need to use the PO Box
                  number that we provided. I have never seen any detailed written
                  information, specifically about caller service or reserve service.
                  A specific definition of reserve service was impossible to locate. I was
                  unable to determine whether a customer was allowed to receive mail
                  under a reserve service number. I spoke with supervisors and the district
                  WebBATS coordinator before finally deciding that reserve means the
                  customer is reserving the number for future use only.
                  It would be helpful to update the WebBATS Manual.
                  They assume that you know all the acronyms and terminology related to
 Training
                  this subject. They need to start giving training as if you are new at it and
                  not make it so confusing and hard to follow. A lot can be said about hard
                  copy training; that way you always have a reference.
                  What is reserve service and who qualifies? Does a caller service
                  customer have a PO Box in the wall assigned, as well?
                  The training was vague. Training was brief and not 'by the book.'

                  I would like more training on the caller and reserve procedures.
                  The procedure of filling out the audit forms was not clear to me. Access
 Annual
                  to eUARS was not available. I did not understand the eUARS report or
 Reviews
                  the significance of it.
                  I would like the audit to be more detailed, so that it is more
                  understandable as to what is expected. Some of the questions and
                  expectations are not detailed enough.
 General          Maintenance of WebBATS records and all associated duties are not a
 Obstacles        priority in my office.
                  I would like to see the work I do given a higher priority, so that during the
                  busier times of the year, I do not get so far behind.




                                               25
Caller and Reserve Service Operations                          DP-AR-13-001



                           Appendix D: Management’s Comments




                                          26
Caller and Reserve Service Operations        DP-AR-13-001




                                        27
Caller and Reserve Service Operations        DP-AR-13-001




                                        28
Caller and Reserve Service Operations        DP-AR-13-001




                                        29
Caller and Reserve Service Operations        DP-AR-13-001




                                        30
